<html>
<title> - EXAMINING EPA'S REGIONAL HAZE PROGRAM: A TEN-YEAR REVIEW OF COSTS AND BENEFITS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                EXAMINING EPA'S REGIONAL HAZE PROGRAM: 
                  REGULATIONS WITHOUT VISIBLE BENEFITS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             March 23, 2016

                               __________

                           Serial No. 114-71

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                             ____________
                             
                             
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-841 PDF                    WASHINGTON : 2017                      
       
__________________________________________________________________________________________       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0166716e416274727569646d712f626e6c2f">[email&#160;protected]</a>  
      
       
       
       

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.          SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
                            C O N T E N T S

                             March 23, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     7

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     9
    Written Statement............................................    11

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    13
    Written Statement............................................    14

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    16
    Written Statement............................................    17

                               Witnesses:

Mr. William Yeatman, Senior Fellow, Competitive Enterprise 
  Institute
    Oral Statement...............................................    18
    Written Statement............................................    20

Mr. Thomas P. Schroedter, Executive Director, Oklahoma Industrial 
  Energy Consumers
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. Bruce Polkowsky, Environmental Policy Consultant
    Oral Statement...............................................    44
    Written Statement............................................    46

Mr. Aaron M. Flynn, Partner, Hunton & Williams LLP
    Oral Statement...............................................    59
    Written Statement............................................    61
Discussion.......................................................    82

             Appendix I: Answers to Post-Hearing Questions

Mr. William Yeatman, Senior Fellow, Competitive Enterprise 
  Institute......................................................    96

Mr. Thomas P. Schroedter, Executive Director, Oklahoma Industrial 
  Energy Consumers...............................................    98

Mr. Bruce Polkowsky, Environmental Policy Consultant.............   101

Mr. Aaron M. Flynn, Partner, Hunton & Williams LLP...............   111

            Appendix II: Additional Material for the Record

Documents submitted by Representative Lamar S. Smith, Chairman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   120

Documents submitted by Representative Suzanne Bonamici, Ranking 
  Minority Member, Subcommittee on Enviorment, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   560

 
                        EXAMINING EPA'S REGIONAL
                             HAZE PROGRAM:
                       A TEN-YEAR REVIEW OF COSTS
                              AND BENEFITS

                              ----------                              


                       WEDNESDAY, MARCH 23, 2016

                  House of Representatives,
            Subcommittee on Environment and
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:33 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bridenstine. All right. The Subcommittee on the 
Environment will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``Examining the EPA's 
Regional Haze Program: Regulations Without Visible Benefits.'' 
I recognize myself for five minutes for an opening statement.
    Today's hearing focuses on EPA's Regional Haze Rule. As the 
Obama Administration nears the end of its time in office, we 
must carefully review the impact, costs, and achievability of 
any rules and implementation plans this activist EPA attempts 
to put in place on the way out the door. As we will see, the 
benefits of this regulation are dubious but the costs to 
individual states, including my home state of Oklahoma, will be 
very, very high.
    Unlike the other regulations promulgated under the Clean 
Air Act that this Committee has examined, the Regional Haze 
Rule is unique for two important reasons. First, it is an 
aesthetic regulation, and not a public health regulation. These 
rules were designed primarily to ensure the public can clearly 
see the sights at National Parks and other natural landmarks. 
Second, Clean Air Act legislative history specifically gives 
individual states a unique degree of authority to be decision 
makers when implementing visibility-improving policies. Over 
the past several decades, visibility levels at many of our 
national parks and wilderness areas have significantly 
improved, due in large part to the efforts of individual states 
working together with stakeholders to implement plans at the 
state level. The EPA did not object to the state plans then, 
recognizing our system of federalism.
    But under this President, the EPA has overruled the plans 
created by many states to comply with this rule, instituting 
Federal Implementation Plans in 14, including Oklahoma, 14 
states, and attempting to institute Federal Implementation 
Plans in two more. These federal plans will have huge 
implementation costs, hurting consumers, those on fixed 
incomes, and small businesses. It will force coal-fired power 
plants to shut down and make electricity generation more 
expensive. OG&E and AEP-PSO, utilities in my state, have had to 
shut down power plants, forcing them to propose rate hikes or 
else go out of business.
    I will remind my colleagues about the multitude of 
economically detrimental, radical regulations pushed by this 
administration, including the Clean Power Plan, Waters of the 
United States, and the National Ambient Air Quality Standards 
for ozone. And now, in a continuation of its war on the poor, 
the EPA is using ``visibility improvement'' to force utilities 
and other stakeholders to further move away from coal and other 
forms of cost-effective power generation. What's worse is that 
the improvements to visibility will be negligible. Many of the 
EPA's own visibility goals have already been achieved.
    Further, the scientific justification for this regulation 
is shaky and questionable, as our witnesses will testify. The 
EPA is instituting more stringent controls for visibility than 
it would for health-based regulations. The precedents set in 
this rule--requiring additional controls with no real benefit 
while requiring controls on individual generation sources--
could have significant and draconian ramifications for regional 
haze planning across the country. This is yet another example 
of the federal government bullying my constituents.
    Later this spring, the Committee will invite the EPA so 
that it will answer questions as to why it has become a radical 
political arm of the Obama Administration, and why they are 
rushing through a vast number of hasty, non-scientific 
regulations, including the Regional Haze Implementation Plans. 
The EPA needs to be held accountable to the American people.
    We welcome the witnesses today and look forward to their 
testimony.
    [The prepared statement of Chairman Bridenstine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I now recognize the Ranking Member, 
the gentlewoman from Oregon, for an opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman. Thank you 
to our witnesses for being here this morning.
    On August 25th of this year the National Park Service will 
celebrate their centennial. So it's fitting that we're 
discussing EPA's efforts to reduce regional haze and maintain 
the scenic outlook of our most treasured locations.
    President John F. Kennedy said of the creation of the 
National Park System: ``It is the course of wisdom to set aside 
an ample portion of our natural resources as national parks and 
reserves, thus ensuring that future generations may know the 
majesty of the earth as we know it today.''
    In 1977, Congress had the foresight to take President 
Kennedy's sentiment to heart and they recognized the threat 
that air pollution posed to our iconic parks and they called on 
EPA to reduce regional haze.
    Some may think that preserving the views in our parks and 
wilderness areas isn't worth the cost, but clearer skies 
actually have a direct effect on the economy, especially in the 
local communities that surround our National Parks. Studies 
have consistently shown that park visitors will cut their trip 
short if the park they are planning to visit is hazy. Shorter 
trips and fewer visitors means less money spent on recreational 
activities, lodging, and food. For example, in 2014, more than 
half a million visitors traveled to Oregon's Crater Lake, 
supporting more than 760 jobs.
    As a whole our National Park System had 293 million 
visitors who added $29.7 billion to the U.S. economy and 
supported 277,000 jobs. We should be doing more, not less, to 
protect these iconic landscapes and the local economies they 
support.
    I'd like to put up a slide that shows the progress we've 
made under the regional haze program, and emphasize that there 
are visible benefits but still work to be done.
    [Slide.]
    This slide shows a side-by-side comparison of the Great 
Smokay Mountains, illustrating the air pollution that existed 
in 1990, the clearing that occurred in 2010, and the goal of 
natural visibility that still needs to be achieved. In 1990, a 
park visitor could see 25 miles out, in 2010, 46 miles, and 
with natural visibility conditions they can see 112 miles of 
this magnificent mountain range.
    Now, I know some consider EPA's efforts to improve air 
quality under the Clean Air Act, including the Regional Haze 
rule, to be a war on coal. I want to mention that earlier this 
month, Oregon became--my home State of Oregon--became the first 
state to enact bipartisan legislation to eliminate the use of 
coal-fired power by 2035. We did this because coal-fired power 
plants are some of our biggest polluters, and if we are going 
to make significant progress in combating air pollution in the 
future, we need to transition to cleaner sources of energy now. 
Such a transition will provide economic opportunities, improve 
public health, and preserve the majesty of our National Parks 
for future generations.
    Mr. Chairman, I have a letter from the National Parks 
Conservation Association that I'd like to submit for the 
record. The letter describes the importance of clean air to our 
National Parks and the need for the Regional Haze program. 
Specifically, the letter states ``A steady reduction in haze-
causing pollution is precisely what is required under the 
Regional Haze Rule to safeguard our iconic landscapes, support 
local communities, and protect the health of all.'' I ask 
unanimous consent that the letter be part of the record.
    Chairman Bridenstine. Without objection.
    [The information appears in Appendix II]
    Ms. Bonamici. Thank you, Mr. Chairman.
    I look forward to the testimony of our witnesses, and at 
this time, Mr. Chairman, I yield back the balance of my time.
    [The prepared statement of Ms. Bonamici follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Ms. Bonamici.
    I now recognize the chairman of the full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman, and thanks to our 
witnesses for being here today as well.
    The Science Committee has held many hearings on the 
regulatory overreach of the Environmental Protection Agency 
during this administration. Unfortunately, the EPA is again 
attempting to unnecessarily and unlawfully regulate the lives 
of the American people. Throughout this Congress, the Committee 
has often revealed how the EPA's regulatory overreach will cost 
billions of dollars, cause financial hardship for American 
families, and diminish the competitiveness of American 
employers, all with no significant benefit to climate change, 
public health, or the economy. The EPA has rushed through many 
costly and burdensome regulations. Examples include the strict 
new National Ambient Air Quality Standards for ozone, Waters of 
the U.S., and the Clean Power Plan.
    Today we will hear how the EPA's interpretation and 
execution of the regional haze rule unlawfully undercuts the 
statutory authority of the individual states. Congress clearly 
intended, through the Clean Air Act, that individual states be 
responsible and in charge of the program, not the federal 
government. Instead, the administration is determined to use 
this rule to impose more costly regulations on Americans.
    In my home state of Texas, the EPA's regional haze 
imposition would affect 14 power plans and cost more than two 
billion dollars. This past Friday, the Attorney General for 
Texas requested a stay of this plan.
    EPA's regulatory agenda is bad for the American economy and 
for the American people. We cannot allow a federal agency to 
assume power that Congress has not given it. The Science 
Committee will continue to rein in the EPA when it oversteps 
its authority. Contrary to the EPA's agenda, Americans want to 
be free from overly burdensome regulations, not tied up in 
more.
    We look forward to EPA's presence at a future hearing. EPA 
will also be expected to answer questions about other 
regulations that the agency has recently issued or finalized.
    Thank you again, Mr. Chairman, and yield back.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I'd like to thank the Chairman for 
his opening statement.
    I now recognize the Ranking Member of the full Committee 
for an opening statement.
    Ms. Johnson. Thank you very much, Mr. Chairman. Welcome to 
our witnesses.
    We are here this morning to discuss the Environmental 
Protection Agency's Regional Haze program. Nearly 40 years ago, 
Congress called on EPA to implement a program that would 
address air pollution in the most iconic and unique places in 
our country: our National Parks. Members of Congress wanted to 
ensure that future generations would be able to enjoy these 
scenic vistas and that their view would not be marred by a 
discolored haze. While the Nation's air quality has improved 
over the years, in part because of programs like the one we are 
discussing today, there is still more that needs to be done.
    When someone visits a National Park today they miss out on 
nearly 50 miles of scenery because of regional haze. This 
pollution doesn't just spoil the view; it also has a negative 
impact on public health.
    Unfortunately, officials from my home State of Texas are 
not leading the charge to reduce air pollution, but instead are 
fighting the EPA once again. Last month, Texas Attorney General 
Ken Paxton filed a lawsuit against EPA after the Agency 
rejected the state's plan for reducing regional haze and 
replaced it with a federal plan. As I understand it, the Texas 
plan did not include a single additional pollution control on 
any of the state's facilities. I'm not sure how the state 
expected EPA to agree that such a do-nothing plan could qualify 
as making reasonable progress toward the program's goal of 
eliminating haze pollution and restoring natural visibility 
conditions.
    Some will likely argue that the pollution controls EPA is 
requiring will not have significant impact on visibility at the 
Big Bend or the Guadalupe Mountains. They will also argue that 
the controls are too expensive and that the reliability of 
states' electric grid will be threatened. This certainly is not 
the case. EPA's plan represents a cost-effective solution to 
addressing regional haze. The EPA's plan will not only ensure 
that visitors to the Big Bend and the Guadalupe Mountains can 
enjoy the scenery for years to come, but it will help lessen 
the public health burden poor air quality has imposed on Texas 
for far too long.
    So Mr. Chairman, I thank you for holding this hearing, and 
I yield back the balance of my time.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I thank the Ranking Member.
    I have a number of pages here of bios to read. We have 
votes at 10:30, so without objection, I'll bypass on the bios, 
and suffice it to say that we have four very qualified 
panelists today testifying. All of them have numerous degrees, 
and they all care deeply about their communities and their 
country.
    With that said, I'd like to now----
    Ms. Bonamici. No objection.
    Chairman Bridenstine. No objection. With that said, I'd 
like to now recognize Mr. Yeatman for his opening statement of 
five minutes.

                TESTIMONY OF MR. WILLIAM YEATMAN

                         SENIOR FELLOW,

                COMPETITIVE ENTERPRISE INSTITUTE

    Mr. Yeatman. Thank you. Chairman Bridenstine, Ranking 
Member Bonamici, Committee Ranking Member Johnson, and 
distinguished members of the Subcommittee, thank you very much 
for inviting me to testify before you on EPA's implementation 
of the Regional Haze program.
    My name is William Yeatman. Very briefly, I work at the 
Competitive Enterprise Institute. We're a libertarian think 
tank here in Washington, DC. With my testimony I just want to 
briefly touch upon two themes as they relate to the Regional 
Haze Rule, and that's federalism and cost as against benefits.
    So first, under the Clean Air Act's framework of 
cooperative federalism, states and EPA are supposed to work 
together to improve the Nation's air quality. Now, in this 
arrangement, the most aggressive action that EPA can perform 
relative to the states is a regulatory takeover. It's known as 
a Federal Implementation Plan, and these--or FIP. And these 
FIPs are a big deal. They literally are EPA seizing a small 
piece of state sovereignty. Because these FIPs, these 
regulatory takeovers, are a big deal, they've been employed 
sparingly, very sparingly, by previous Administrations. For 
example, the previous three Administrations, Presidential 
Administrations--George H.W. Bush, Bill Clinton, and George W. 
Bush--among them EPA imposed five total regulatory takeovers 
across all Clean Air Act programs. Now, by contrast, since 
2009, EPA has imposed 15 FIPs, and that's just in the Regional 
Haze program, so you take the previous three Administrations, 
their total number of takeovers across the entire Clean Air 
Act, you add them up, you multiply them times three, and that's 
how many we've had from the Environmental Protection Agency 
since 2009.
    So this raises significant federalism implications. At the 
same time, it raises cost concerns by my estimate. These 
regulatory takeovers will amount to cost of at least $5 
billion. That's in capital cost up front. This burden will fall 
primarily upon about seven states including Oklahoma, which 
again the residents of Tulsa and Oklahoma City are facing rate 
increases of 14 and 20 percent, respectively, and that's just 
the beginning and it's due to the Regional Haze Rule. Again, 
these costs fall disproportionately on the poorest amongst us. 
They're aggressive. The poorest among us spend more on energy 
as a proportion of their income. So we've got these federalism 
concerns, we've got these aggressive costs. You might think to 
yourself, well, geez, EPA must have a really good reason to do 
this, to perform these acts, and in fact, the case is--alas, 
that's not the case. I mean, the benefits are literally 
invisible, and we can demonstrate this with computer modeling 
known as--or software, I should say, known as WinHaze, we can 
model the visibility improvements attendant to EPA's controls 
relative to the states' controls, and if we could please get 
the first, so this is a split-screen image. On the left, those 
are the state controls. They're 50 percent of the screen. 
That's what Oklahoma did, you know, thousands of hours of work 
they put into a plan, more than a thousand pages. Those are the 
visibility benefits. So on the right, those are the visibility 
benefits attendant to EPA's controls, and again, those are 
invisible. No reasonable person is going to tell you there's a 
difference there. Again, the cost is $1.8 billion. So big-time 
cost, invisible benefits. I should note that this is the 
greatest visibility improvement wrought by any of EPA's FIPs, 
so this is--there's no state whose, you know, benefit, if you 
will, is greater than this.
    If we could get the next slide?
    [Slide.]
    This is Texas, so similarly, this is actually a visibility 
benefit one-sixth of the previous slide, of Texas, the 
implementation plan on the left, EPA's on the right. EPA deemed 
Texas's plan insufficiently protective of visibility, and based 
on that imposed this plan for $1.7 billion. I mean, there's no 
difference. It raises serious questions about, I guess, again, 
cost versus benefit. So those were the themes I wanted to brush 
upon just in general.
    This plan raises serious federalism concerns. It imposes 
regressive significant costs, and the benefits are literally 
invisible.
    Thank you very much. I look forward to the Q&A.
    [The prepared statement of Mr. Yeatman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you for your testimony.
    I now recognize Mr. Thomas Schroedter, Executive Director 
and General Counsel of the Oklahoma Industrial Energy 
Consumers.

             TESTIMONY OF MR. THOMAS P. SCHROEDTER

                      EXECUTIVE DIRECTOR,

              OKLAHOMA INDUSTRIAL ENERGY CONSUMERS

    Mr. Schroedter. Thank you, Subcommittee Chairman 
Bridenstine, and thank you, members, for the opportunity to be 
here. I am the Executive Director of a trade association called 
OIEC. It is a trade association of energy-intensive 
manufacturers, refiners, transporters, and other large energy 
consumers. They have facilities located throughout the State of 
Oklahoma and the members companies employ tens of thousands of 
Oklahomans. Many of those members are engaged in energy-price-
sensitive industries such as pulp and paper, cement, refining, 
industrial gases, plastic, food processing, fertilizer. As I 
say, these members provide tens of thousands of jobs to the 
State of Oklahoma.
    My testimony is going to address the impact of the Regional 
Haze Rule on the state. Unfortunately, Oklahoma spent a lot of 
time coming up with a State Implementation Plan to address 
Regional Haze but unfortunately that plan was rejected. It was 
rejected by EPA in December of 2011, and EPA insisted that the 
State of Oklahoma plan provide for scrubbers on six coal-fired 
generating units. Now, those scrubbers were very expensive, and 
the State of Oklahoma determined that the scrubbers were not 
cost-effective, that they should not be implemented and instead 
that the utilities in Oklahoma should move to low-sulfur coal 
and they could comply with Regional Haze by doing that. As I 
said, EPA disagreed and they imposed--EPA imposed a Federal 
Implementation Plan.
    What happened after that, OG&E went to court, went to the 
10th Circuit. PSO, the other investor-owned utility, negotiated 
a settlement with the EPA. But I want you to know that the 
bottom line of what's happened or what will happen in Oklahoma 
is that we will incur substantial rate impacts for all utility 
ratepayers whether they're residential, whether they're small 
businesses, whether they're large energy consumers such as my 
members.
    The first year rate increases--and you're going to hear 
lots of numbers today--but the first year rate increases are 
estimated to be 11 to 12 percent, but that's only year one. 
Based on an analysis that we have done, and I don't think that 
many will disagree with, the OG&E will expend more than $4.2 
billion in excess costs in order to comply with Regional Haze. 
I have a slide on that.
    [Slide.]
    The nominal cost to comply over the lifecycle is basically 
$4.5 billion. The other utility, PSO, will expend approximately 
$5.1 billion more than the Oklahoma State Plan, and the reason 
PSO's plan is more costly is they are closing their coal 
plants. They're converting them to natural gas.
    These are very serious ramifications, members, that I'm 
pleased that you've given me the opportunity to share with you. 
One of the ramifications is that basically we will be left with 
reliance on natural gas-fired generation, and that means loss 
of diversity. It's like investing in the stock market and only 
investing in one stock. We will be heavily invested in one fuel 
supply, and that's not good if that price increases.
    As you know, as energy rates go up, there's a political for 
increased unemployment, and we've looked at that, and 
unfortunately, the regressive nature of the Regional Haze 
Federal Implementation Plan means that as you get to lower 
income consumers, the impact is greater because more and more 
of their income is spent on energy. So this is bad for all 
consumers, not just large consumers like my members but large 
consumers. It's bad for Oklahoma. It will impact the 
competitiveness of Oklahoma. I can tell you that my members, if 
it becomes too costly to manufacture, will either manufacture 
in other states or not manufacture their products.
    Thank you for the opportunity to be here today and to 
testify.
    [The prepared statement of Mr. Schroedter follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you for your testimony.
    And so everybody knows, the panelists have submitted 
testimony that is much longer that is all made part of the 
record, so that will be available for everybody.
    Our next witness is Mr. Bruce Polkowsky, an Environmental 
Policy Consultant. You're recognized for five minutes.

                TESTIMONY OF MR. BRUCE POLKOWSKY

                ENVIRONMENTAL POLICY CONSULTANT

    Mr. Polkowsky. Thank you, Chairman Bridenstine, Ranking 
Member Bonamici, and Committee Ranking Member Johnson, for the 
opportunity to speak to you about my experiences with EPA's 
visibility protection program.
    Our National Parks and wilderness areas are treasures of 
immense cultural and spiritual importance. Visitors expect and 
value clean, clear air. Those visitors generate billions of 
dollars and thousands of jobs at local gateway communities, and 
studies show that many Americans who may not visit these areas 
nevertheless value protecting visibility for future 
generations.
    Section 169(a) of the Clean Air Act establishing the 
national goal of preventing and remedying manmade impairment of 
visibility in our large National Parks and wilderness areas and 
requiring EPA to issue rules for states to provide reasonable 
progress towards that goal reflects the expectations and values 
of most Americans.
    EPA's visibility program has developed slowly, very slowly 
from 1980 on to now, but it's done so in conjunction with 
advances in scientific techniques to understand the components 
and sources of the plumes and haze, and the regulatory program 
has developed slowly with input from states and tribes. 
Particularly when I was working on the Regional Haze rules at 
EPA, I took into account recommendations of the Visibility 
Transport Commission for the Grand Canyon that was established 
by Section 169(b), and incorporated aspects of targeting the 
clearest days for protection and targeting the most impaired 
days for improvement that came directly from the Commission as 
well as the glide path concept of moving towards natural 
conditions based on the Grand Canyon Commission's projected 40 
to 70 percent reduction of sulfur dioxide across an eight-state 
region.
    So the program has also spurred technical innovation in the 
monitoring program, a network that has been formed for federal 
agencies, states and academic institutions to develop equipment 
and techniques for routine capturing and analyzing the chemical 
makeup of atmospheric particles, those techniques were proven 
in parks and wilderness areas and then became the foundation 
for the monitoring of those same particles in urban areas to 
implement the Fine Particle Health Standard.
    And EPA has fostered innovative implementation as well. In 
some actions to control pollutants from sources subject to 
Section 169's Best Available Retrofit, or BART technology, 
which must be implemented within five years, EPA has shown 
great flexibility in seeing value in attaining greater 
improvements over a longer period of time at a lower cost. EPA 
has also considered multi-pollutant benefits when weighing 
alternatives to controlling a single pollutant under BART.
    Over the nearly four decades since Congress established the 
national goal for our most treasured lands, there has been 
significant progress in improving visibility in many but not 
all locations. These improvements reflect emission reductions 
that lowered atmospheric concentrations of fine particles 
resulting from different regulatory programs. Some focused on 
protecting human health, others on reducing harmful effects on 
public welfare and ecosystems such as acid rain, and some were 
taken specifically to address visibility. As the National 
Academy of Sciences noted in their 1993 report on protecting 
visibility, pollutant emission reductions that lower ambient 
concentrations of fine particles will improve the health, 
welfare and visibility regardless of which regulatory program 
required the reduction.
    There is still work to do to maintain progress towards the 
national goal. States and EPA each have very important roles in 
continuing to make that progress, but given the complex 
atmospheric chemistry and meteorology that form and transport 
fine particles over long distances coupled with the sensitivity 
of clean atmosphere to small increases in fine particle 
concentrations, EPA has a unique role in assuring that 
implementation plans of all the states and tribes fit together 
to continue to make progress towards the national goal.
    And one comment I have about the number of FIPs. In 1984, I 
had to issue 35 FIPs for visibility protection for the 1980 
rule, so there is precedent in looking at when a new series of 
programs is required for the EPA to look state by state.
    So again, thank you for this opportunity, and I'm glad to 
answer any questions you may have.
    [The prepared statement of Mr. Polkowsky follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. Thank you, Mr. Polkowsky.
    Our next witness is Mr. Aaron Flynn, Partner at Hunton and 
Williams. He previously served as legal counsel for the Science 
Advisor to the President at the White House Office of Science 
and Technology Policy. Mr. Flynn, you're recognized for five 
minutes.

                TESTIMONY OF MR. AARON M. FLYNN

                 PARTNER, HUNTON & WILLIAMS LLP

    Mr. Flynn. Thank you, and good morning. It is an honor to 
appear before this Subcommittee to offer testimony on EPA's 
Regional Haze program. As the Chairman just said, my name is 
Aaron Flynn. I'm a Partner in the law firm of Hunton and 
Williams. I've practiced environmental law as an attorney for 
the Congressional Research Service for the White House Office 
of Science and Technology Policy, and since joining Hunton and 
Williams in 2007, my practice has focused on the Regional Haze 
program.
    When Congress enacted the Regional Haze provisions of the 
Clean Air Act, it made very clear that the states, not EPA, 
should make the key decisions about how to implement the 
program. Congress directed EPA to develop rules to guide state 
decision making while states were tasked with weighing the 
relevant information, particularly information related to 
compliance costs and the relative significance of visibility 
improvements that different controls can achieve, and then 
deciding which controls were justified and which demanded too 
much. The early decisions of the DC. Circuit acknowledged and 
strictly adhered to Congress's design for the program. In 2002, 
the court struck down EPA's first attempt at a Regional Haze 
rule in a case called American Corn Growers Association versus 
EPA because that rule unlawfully constrained state discretion 
to make Best Available Retrofit Technology, or BART 
determinations. EPA's rules would have effectively forced 
states to place greater weight on visibility impacts over costs 
or any of the other statutory BART factors, and in tossing out 
those rules, the DC. Circuit stated clearly that EPA could not 
infringe in that matter on state decision making.
    When EPA promulgated replacement Regional Haze Rules in 
response to the Corn Growers decision, including rules 
affording states broad discretion to adopt alternatives to 
strict BART requirements, the DC. Circuit sustained those 
regulations against challenges that sought more restrictive 
policies.
    EPA began to stray from a commitment to recognizing state 
discretion, however, when implementation of the Regional Haze 
program began in earnest in several early rulemakings to 
establish BART requirements for facilities over which EPA had 
direct regulatory authority and where no state had an 
opportunity to weigh in first the Agency established precedents 
for conducting BART assessment, precedents that were not 
necessarily clear requirements of the Clean Air Act or EPA's 
BART rules. Not only did those rulemakings establish 
questionable analytical practices, they also imposed 
requirements that sources install the most expensive emission 
controls operated to achieve the most stringent emission limits 
possible. That's a questionable policy in and of itself for 
older facilities that are undergoing emission control 
retrofits, as all BART-eligible facilities are.
    In subsequent rulemakings, EPA went even further. While 
state plans that adopted EPA's policy preferences were often 
approved, states that chose to use their discretion differently 
frequently faced plan disapproval and replacement of their 
policy decisions with federal plans imposing strict emissions 
limits and expensive technology requirements.
    Many states challenged the disapproval of their plans in 
federal circuit courts, and some of those challenges have led 
to successful settlements and some limited victories. The vast 
majority of decisions, while acknowledging the state's role in 
the Regional Haze program, have nevertheless accepted arguments 
that could be interpreted to grant EPA broad discretion to 
disapprove state plans. Decisions from the 8th, 9th and 10th 
Circuits affecting facilities in Oklahoma, North Dakota, 
Nebraska and Arizona have all deferred largely to EPA's 
judgment and granted no similar deference to state decisions.
    Litigation over EPA's actions during the Regional Haze 
program's first planning period may be coming to a close but 
one case that is still in the earliest stages could set the 
tone for the next state of implementation. Petitions for review 
of EPA's Regional Haze Rule for Texas and Oklahoma have been 
filed in the 5th, 10th, and DC. Circuits, and whichever case--
whichever court hears the case will decide a number of key 
questions of first impression under the program including the 
scope of state discretion under the Clean Air Act's Reasonable 
Progress provisions, which will likely be the key driver of any 
future regulatory requirements under the program.
    The court will also be acting on one of EPA's most 
controversial Regional Haze Rules to date, one that would cost 
approximately $2 billion more than Texas's plan while achieving 
no appreciable incremental visibility benefit. And DDPA's own 
monitors confirm that the Agency's Reasonable Progress goals 
for Texas are being achieved today based on emissions 
reductions that have already occurred, rendering EPA's plan 
unnecessary.
    I look forward to discussing these issues further, and 
thank you again for the opportunity to testify today.
    [The prepared statement of Mr. Flynn follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Bridenstine. I thank the witnesses for their 
testimony. Members are reminded that Committee rules limit 
questioning to five minutes. The Chair recognizes himself for 
five minutes.
    Mr. Flynn, is the Regional Haze program intended to protect 
public health?
    Mr. Flynn. Thank you for the question, Chairman. It 
categorically is not intended to protect public health.
    Chairman Bridenstine. Can you explain how this makes this 
rule different from the National Ambient Air Quality Standards?
    Mr. Flynn. Absolutely. The Regional Haze Rule is aimed 
entirely at protecting visibility conditions. Section 169(a) of 
the Clean Air Act establishes a national goal that Congress set 
of achieving visibility conditions in what are called Class I 
Federal Areas, essentially National Parks and wilderness areas, 
large ones, that is unimpaired by manmade air pollution. That 
national goal is phased in over a long period of time, a 
decades-long expanse of time. EPA has set a target goal for 
achieving the national goal of 2064. Even that date is not 
written into the statute, and it's simply a part of EPA's 
regulations, and EPA's regulations provide for the fact that 
states are free to determine whether the glide path to get to 
unimpaired visibility by 2064 is in fact reasonable. If it's 
not reasonable, states are free to push that deadline back even 
further.
    Chairman Bridenstine. Let me ask you on that. Did Congress 
intend the Regional Haze program to be used by the EPA to 
mandate specific controls at specific power plants? Was that 
the intent?
    Mr. Flynn. Congress certainly provided for the BART 
provisions, which envision states looking at and deciding 
whether specific controls are justified for a specific 
facility.
    Chairman Bridenstine. But that would be up to the states, 
right?
    Mr. Flynn. Exactly right, sir, and it is also--certainly 
there was no--there's nothing in the Clean Air Act that 
suggests that specific controls for specific classes of 
facilities are mandated by the Regional Haze program. It is 
very much a process of weighing various factors, a process that 
is imbued with a vast amount of discretion in order to 
determine whether controls are justified at all and what 
controls those might be, and as you said, those decisions are 
intended to be made by the states.
    Chairman Bridenstine. Okay. Thank you.
    Mr. Yeatman, would you agree that EPA's visibility goals at 
the heart of the Regional Haze regulations have already been 
achieved. Based on the pictures you showed up and compared to 
some of the pictures we saw before that, it would appear that 
most of these goals have already been achieved. Would you agree 
with that?
    Mr. Yeatman. Thank you very much for the question. Indeed, 
I would agree that as Congress envisioned and as EPA 
envisioned, because this is an aesthetic regulation and not a 
public health regulation, that states could very well achieve 
the goals of this program through implementation of the Clean 
Air Act's public health rules. I mean, remember, the Clean Air 
Act is a ratcheting mechanism. Every eight years the New Source 
Performance Standards for each source category must be reviewed 
and updated. Every eight years Hazardous Air Pollutant 
Standards for each source category must be updated. So the very 
nature of the Clean Air Act is to get more stringent with time. 
It is as such reasonable to depend on these ever-more stringent 
public health controls to achieve these not public health, 
these aesthetic goals.
    Very briefly, if I might just touch upon the matter of the 
Federal Implementation Plans that was brought up by my fellow 
witness, indeed, I would note I was under the impression it was 
26 as opposed to 35, but that is neither here nor there. We can 
definitely get the official number in the record. I note only 
that all FIPs are not created equal. As I understand it, and as 
was explained in the testimony of my fellow witness, Mr. 
Polkowsky, the science wasn't there to implement Regional Haze 
Rules for regional haze as opposed to individual plumes until 
the late 1990s. The upshot is, there weren't costs attendant to 
those FIPs. I mean, correct me if I'm wrong, Mr. Polkowsky, but 
I'm under the impression there were controls at the Four 
Corners power plant that first round but I don't know of any 
others. The upshot being, there certainly weren't $5 billion 
worth of costs imposed by the federal government on unwilling 
states. So I think that's a difference that should be noted.
    Chairman Bridenstine. In my few remaining seconds, at this 
time, Mr. Yeatman, are additional and more stringent Regional 
Haze regulations necessary?
    Mr. Yeatman. Oh, it's for each state to determine. That's 
for states to determine how much they value an aesthetic 
improvement.
    Chairman Bridenstine. Okay. My time is expired.
    I now recognize the Ranking Member, Ms. Bonamici, for five 
minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to our witnesses for all your testimony and expertise.
    I basically want to focus on economic issues, but Mr. 
Polkowsky, you state in your written testimony in your 
conclusion that it's important to recognize that any pollution 
control required for protection of visibility will have 
collateral benefits for public health by reducing human 
exposure to fine particulate matter, and that is also spelled 
out with more detail in the letter that we submitted for the 
record from the National Parks Conservation Association because 
we are talking about the same pollutants that contribute to 
visibility impairment, harming public health when we're talking 
about respiratory disease, decreased lung function, asthma 
attacks.
    So could you just briefly comment on that aspect as well? 
Even though yes, this rule was--the goal is for visibility but 
there are--you know, we often think about unintended 
consequences of legislation. These happen to be positive 
consequences that aren't necessarily what was the goal of the 
legislation.
    Mr. Polkowsky. Yes, you're absolutely correct in that when 
you control for visibility to aim at a certain target like a 
BART determination as we did in Arizona in the mid-1980s--
sorry, in the early 1990s, there were certainly benefits to 
exposure on tribal lands and nearby communities. So those 
exposures reduce--those pollutants being reduced, sulfur 
dioxide in that case, is going to contribute to lower sulfate 
levels, which will improve visibility. It will also mean less 
sulfate to be inhaled and less health impacts for the 
communities that are exposed, and that's true for implementing 
maximal improved visibility if it reduces levels of fine 
particles. It works both ways, and----
    Ms. Bonamici. Thank you. And I'm going to ask you, in your 
testimony you talk about the long-term surveys that the 
National Park Service has conducted of park visitors, and you 
mentioned the value that visitors ascribe to clean air and 
scenic views, and you state that the protection of visibility 
in our most treasured parks and wilderness areas drives 
economic progress in those regions and nationally.
    So can you talk about--you did in your testimony, but 
expand on the economic effect of haze and how does that impact 
a visitor's experience and the economy of the local region?
    Mr. Polkowsky. Well, as you already noted, one of the key 
factors is that as visibility improves, people actually spend 
more time at the parks, and that's very important because when 
they spend more time, they spend more money, and as our Clean 
Air Task Force report in 2000 looked at, you know, can we 
actually link improving--reducing emissions from power plants 
across mainly the eastern sector. This is before the full wave 
of controls that is sort of well underway in the east. Would 
that actually result in economic benefit across all these 
communities and more jobs, and the answer was yes.
    Ms. Bonamici. And I do want to get in another question in 
my remaining time.
    Mr. Polkowsky, the testimony of some witnesses seems to 
suggest that the EPA should sort of rubber-stamp the state's 
implementation plan, and I don't think anyone here is 
suggesting that, so could you talk about the oversight role of 
the EPA in implementing the Regional Haze program and whether 
it's appropriate for the EPA to evaluate the state's 
implementation plan to ensure that the requirements of the 
program are being met?
    Mr. Polkowsky. It's, you know, a sort of required role of 
the Clean Air Act for EPA to have oversight on all State 
Implementation Plans for whatever program is being implemented, 
and in this case, as I mentioned in my oral testimony, we're 
dealing with the formation and transport over long, long 
ranges, hundreds of miles, and so coordinating the state plan, 
for instance, perhaps in Texas with what the goals that were 
set in Arkansas for Caney Creek Wilderness is important. That's 
an important function to make sure that Arkansas is going to 
get what it's counting on in terms of emissions reductions from 
another state.
    Ms. Bonamici. And are there particular states--I think 
there was an example of Colorado where the approval process 
went through and----
    Mr. Polkowsky. Well, Colorado took a multi-pollutant, 
multi-target approach for looking at not only visibility at 
Rocky Mountain National Park and other 12 Class I areas but 
also looking at the nitrogen deposition and ozone on the front 
range and combined all that together as part of the Regional 
Haze Plan and EPA approved it.
    Ms. Bonamici. Terrific. My time's about to expire. I yield 
back. Thank you, Mr. Chairman.
    Chairman Bridenstine. The gentlelady yields back.
    I now recognize the gentleman from Texas, Mr. Neugebauer, 
for five minutes.
    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Yeatman, earlier this month on March third, a lawsuit 
was filed by Texas utilities under the Regional Haze issue, and 
the state of Texas had to respond to an egregious action by 
EPA. In this case, EPA waited more than six years to disapprove 
the Texas State Implementation Plan and replace it with a 
Federal Implementation Plan that imposes interim compliance 
requirements that some people say cannot be met.
    You know, it's kind of interesting when EPA rejected the 
Texas plan based on that--on direct reasonable progress into 
source-specific analysis, and I think the tenth Circuit 
actually ruled that the source-specific analysis in determining 
reasonable progress was not required either by the law or the 
regulation. Isn't this just kind of a bullying of the coal 
industry and trampling on the states' plans and rights?
    Mr. Yeatman. It is certainly, I would argue, an instance of 
inappropriate treatment of the states, an inappropriate--an 
absence of respect for the state's decision making, indeed, the 
state's authority pursuant to the Clean Air Act.
    If I might add very briefly, at the outset of your question 
you noted that EPA waited six years to approve and act on 
Texas's plan, and that's actually a big component of this 
Regional Haze regime, that EPA has 18 months by statute to 
judge a state plan, and yet what it has done time after time 
and state after state is sit on these plans well past the 18 
months, and what that does is under the Clean Air Act, 
environmental groups are allowed to sue the EPA to compel 
missed deadlines. The upshot is, because EPA has not been 
meeting its statutory responsibilities to review state plans in 
a timely fashion, they've opened themselves up to what are 
known as these ``sue and settle'' litigations or lawsuits 
whereby they become beholden to these ultra-rushed deadlines, 
these ultra-rushed rulemakings of which Texas was one.
    So that is a facet I wasn't able to address in my oral 
testimony but it is an important element of this regime as 
implemented. The Agency simply has not been meeting its 
statutory responsibilities in reviewing these plans. They've 
left states twisting in the wind.
    Very briefly, I'll note that Texas submitted its plan in 
2009 in accordance with 2006 document--I'm sorry--guidance 
documents on Regional Haze issued by EPA. So Texas was using 
the most recent documentation while EPA sat on the Texas plan. 
They issued updated guidance on which the Texas plan was 
judged. So it's sort of, you know, after the fact review with 
respect to--or I guess a bait and switch. I'm not sure what 
metaphor I'm looking for. But Texas based its plan on the rules 
that were in play when they submitted it. EPA waited six years, 
changed the rules, and then judged the Texas plan based on 
different rules. So I'm glad I was afforded the opportunity to 
discuss that matter.
    Mr. Neugebauer. Well, you know, it's my understanding that 
EPA's own monitors showed that Texas had already achieved its 
visibility goals. Can you address that? How does that make 
sense?
    Mr. Yeatman. You're exactly right. Again, EPA is going to 
base its regulation upon model results. However, real-world 
results, the last five years, the running average at the Big 
Bend National Park indicates that Texas has already achieved 
EPA's 2018 goal. So despite the fact that Texas has already 
achieved EPA's 2018 goal, EPA's own goal, and despite the fact 
that EPA's controls don't result in any visibility benefit and 
they cost about two billion dollars, you know, EPA proceeded 
the pace. So it is--that's another troubling aspect certainly 
of the Texas FIP.
    Mr. Neugebauer. So let me understand that. So waited five 
years, and then Texas was already meeting the goal, but EPA 
denied their plan and said we want you to do a new plan, which 
as I understand will force Texas to spend $2.8 billion to 
increase an already 28.4-mile view by the length of seven 
football fields. Does that make sense for--I think that's $2.8 
million a yard.
    Mr. Yeatman. That sounds--now, cost figures I have heard I 
guess perhaps closer to two billion dollars. Nonetheless, we're 
talking billions of dollars for benefits that are literally 
invisible. So the only dispute I would have with your comment, 
respectfully, is that Texas achieved the EPA's goal over the 
last five years while EPA was dithering on its plan.
    Mr. Neugebauer. Thank you. I yield back.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the Ranking Member, Ms. Johnson, for five 
minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Polkowsky, I appreciated your quoting President Teddy 
Roosevelt in your testimony as he was surely someone ahead of 
his time in contemplating issues and environmental health. In 
1908 in a speech given at the opening of the Conference on 
Conservation and Natural Resources, he said, ``But the time has 
come to inquire seriously what will happen when our forests are 
gone, when the coal, the iron, the oil and the gas are 
exhausted, when the soil shall be still further impoverished 
and washed into streams, polluting the rivers, denuding the 
fields, obstructing the navigation. These questions do not 
relate only to the next century or to the next generation. It 
is time for us now as a Nation to exercise the same reasonable 
foresight in dealing with our great natural resources that 
would be shown by any prudent man and conserving and widely 
using the property which contains the assurance of well-being 
for himself and his children.''
    More than 100 years later, it seems that we still are 
working against the forces that would keep us from achieving 
the vision laid out by President Roosevelt when he had this in 
mind. Why is it important that we continue to improve the air 
quality for our National Parks and around the country? Is it 
simply good enough to achieve some arbitrary standard or should 
we strive to make good on the words of President Roosevelt?
    Mr. Polkowsky. Well, I certainly think we should make good 
on the words of President Roosevelt, and I think that sort of 
having a false dichotomy of looking at this as visibility 
protection or public health is just--it's wrong. We live in one 
atmosphere, and we should be striving to get that atmosphere as 
clean as we can, to improve public health, to improve the 
aesthetic quality of our parks and wilderness areas as one 
program moving forward. And I think the history of looking at 
EPA's Visibility Protection program has been one of applying 
careful science to exactly that goal.
    Ms. Johnson. Thank you. The Clean Air Act's Visibility 
Protection program is grounded in science, showing that 
reducing pollution that scatters light like sulfur dioxide, 
nitrogen oxide, and particulate matter results in cleaner and 
clearer air. Visibility impairment is measured in deciviews, a 
measure of the perceptive change in visibility where the higher 
the deciview value, the worse the visibility impairment.
    In his testimony, Mr. Yeatman suggests that because the 
average person may not be able to perceive or visibly discern 
the reduction in haze achieved through the additional controls 
required by EPA and because of that, the controls are not worth 
the added cost. Do people actually notice visibility 
improvement? Is a one deciview of visibility improvement, or 
conversely, degradation, actually perceptual to a National Park 
visitor? And can we explain why emissions reductions result in 
less than a deciview of improvement are needed to advance the 
Clean Air Act objectives?
    Mr. Polkowsky. The answer is that any given view can take 
anywhere from a half a deciview to be visible to several 
deciviews but people in general on views that incorporate a 
wide aspect of contrast change and enough sky color can see a 
one-deciview change. A study in Phoenix looked at a deciview 
change over one deciview at a time from 14 deciviews to 32 
deciviews, and people ranked those, 385 people ranked those in 
absolute order from good to bad, and that wouldn't have 
happened if they couldn't perceive a change of a deciview.
    And so it's really important that we also make progress 
towards improving these deciview readings at these parks and 
wilderness areas, and you can only do that incrementally, and 
one single source may only move a fraction but the courts and 
EPA have said that, you know, this is the way you move forward.
    Ms. Johnson. Thank you very much. My time is about to 
expire.
    Chairman Bridenstine. The gentleman from Louisiana, Mr. 
Abraham, is recognized for five minutes.
    Mr. Abraham. Thank you, Mr. Chairman.
    Mr. Polkowsky, in your testimony you mentioned innovation 
implementation of EPA's rules and orders, and I would probably 
argue that I would use a different adjective that probably in 
this public forum would not be appropriate in my opinion.
    I've heard when Mr. Neugebauer, you said, Mr. Yeatman, that 
Texas has achieved its own goal, and the states are doing a 
wonderful job. I've heard that this implementation of EPA's 
rules in this instance would cost billions of dollars and 
increase energy costs, as you said, Mr. Schroedter. And again, 
I don't think anybody on this panel doesn't want clean air and 
beautiful, pristine national parks, but I think I could argue 
that with the billions of dollars, the increased energy costs, 
states doing a great job themselves, that the consumer is not 
going to be able to afford to go to the parks if this goes into 
law.
    Now, I'm a physician by trade, so I have to make decisions 
on objective data and hard science, and Mr. Yeatman and Mr. 
Flynn, I'll address this question to you. What science and 
modeling has the EPA used to come up with this? I mean, I can't 
find any, and maybe I'm missing something, but I'll let you 
respond.
    Mr. Yeatman. Thank you for the question. There are no 
tricks. I mean, this is--what I demonstrated to you was 
precisely what EPA is bringing to the table. With respect to 
the previous discussion about deciview and visibility, that 
Oklahoma picture, the side-by-side one, that was 2.89 
deciviews. The Texas picture, that was .5 deciviews. Now, 
according to peer-reviewed research, there is a 20 to 40 
percent change of the average person being able to view a one-
deciview change. We saw that difficulty. It was evident when we 
compared the----
    Mr. Abraham. But the EPA claimed that the average person 
can pick up one single deciview. That can't be correct.
    Mr. Yeatman. Well, respectfully, I think EPA's language is 
``likely,'' so they use hedge words such as that. I don't think 
they've ever definitively said that one deciview indeed would 
be visible, and indeed, the agency never directly takes on for 
obvious reasons the putative benefits of its rule.
    Mr. Abraham. Thank you, Mr. Chairman. That's all I have. I 
yield back.
    Chairman Bridenstine. The gentleman yields back.
    I now recognize the gentleman from Michigan, Mr. Moolenaar, 
for five minutes.
    Mr. Moolenaar. Thank you, Mr. Chairman. Thank you, 
panelists.
    Mr. Yeatman, I wanted to ask you about the sue-and-settle 
lawsuits and this concept that according to your written 
testimony, every EPA disapproval of a state Regional Haze plan 
and every EPA Federal Implementation Plan has been rendered 
pursuant to a sue-and-settle lawsuit between environmental 
special interests and the Agency. I wondered if you could 
explain for us how that works and what are the practical 
ramifications for that?
    Mr. Yeatman. Thank you very much for the question. So it 
works--I laid it out in a previous answer. Really, it's a 
function of EPA's inability to meet its statutory 
responsibilities. EPA is leaving states twisting in the wind 
while it waits years to respond to these plans, and because the 
statute affords special interests the opportunity to sue the 
EPA to compel the Agency to meet its non-discretionary duties, 
what we have is a scenario whereby EPA sits on the plan, 
exceeds the statutory responsibility, opens itself up to 
litigation, that then leads to these--the practical 
ramification is a rushed deadline. State after state after 
state has complained that EPA is imposing these costs, these 
billion-dollar costs, and conducting these rulemakings on an 
ultra-tight schedule. So, you know, of course a rushed 
rulemaking is a shoddy rulemaking, so sue-and-settle itself in 
this instance is a function of the Agency's not meeting, 
failing to meet its statutory responsibilities in reviewing 
state plans, and the ultimate impact are rushed, poor 
rulemakings.
    Mr. Moolenaar. And what is the state's role in that? I 
mean, they would be a stakeholder. Are they involved in that 
process?
    Mr. Yeatman. That's a wonderful question. I'm glad you 
brought that up.
    The worst element, if you will, of the sue-and-settle 
component of this regulatory regime is that the Agency has 
actively litigated to oppose states from intervening in these 
sue-and-settle lawsuits, so that is--states are the regulated 
entity. They're EPA's partner under the cooperative federalism 
framework. So states become aware that these negotiations are 
occurring between EPA and special interests under the auspices 
of district court, federal district court. States want to 
intervene. You know, North Dakota has tried this, Oklahoma has 
tried this, Texas has tried this. They won't intervene and 
protect their interest. Again, cooperative federalism. They're 
the regulated entity. EPA when they haven't actively litigated 
to oppose state participation, they've ignored state 
stakeholders at the negotiating table. So that has been a very 
troubling aspect. I mean, perhaps the most egregious affront to 
cooperative federalism has been EPA's activity in the courtroom 
with respect to these sue-and-settle lawsuits.
    Mr. Moolenaar. Thank you for clarifying that.
    Mr. Schroedter, am I pronouncing that right?
    Mr. Schroedter. Yes.
    Mr. Moolenaar. Thank you. In your written testimony, you 
mention the regressive economic nature of this regulation, and 
I wondered if you'd go into more detail for us on how this rule 
widens the income inequality gap.
    Mr. Schroedter. Yes. In my testimony, I point out that, for 
example, with respect to the impact on households that first of 
all, Oklahoma households spend an average of 12 percent of 
their after-tax incomes on energy. Eight hundred and twenty-
seven thousand Oklahoma households earn less than $50,000 per 
year, and they spend 21 percent of their after-tax incomes on 
energy. Three hundred and eighty-one thousand households with 
annual incomes of $10,000 to $30,000 spend 25 percent of their 
after-tax income on energy. So you can imagine if we're talking 
about rate increases of ten percent to 20 percent, which is 
what's going to happen in Oklahoma, that these are going to be 
the most impacted, the lower income and those on fixed incomes, 
and it's a regressive ramification for Oklahoma households.
    Mr. Moolenaar. And how about the effect on small 
businesses? Is that something that would force businesses to 
close shop or move to another state because of these costs?
    Mr. Schroedter. Well, on small businesses, you know, the 
electric--the energy cost can make a difference between making 
it and breaking it. If you're on the bubble, let's say, I mean, 
if you're barely getting by and you get hit with a 10 to 15 
percent increase, not only that, but then you're looking at 
more increases, those businesses, those small businesses are 
likely not going to make it. They're going to shut down. 
Whether they move to another state I think is more for the 
larger industries and my members where if the electric bills 
become such that they are no longer competitive in their 
operations, they're going to move the production. What you'll 
see is, you'll see moving production to other states, and if 
other states get hit, then what'll happen? Offshore, perhaps, 
because it won't be competitively economic to manufacture the 
product. So that's a concern, a big concern.
    Mr. Moolenaar. Thank you.
    Chairman Bridenstine. The Ranking Member has requested 30 
seconds to make a second. Without objection, would that be all 
right? Okay.
    Ms. Bonamici. Thank you, Mr. Chairman. We have no other 
members on this side.
    And I just wanted to request that we put into the record a 
Sustainable Energy in America fact book from 2016, Bloomberg 
New Energy Finance, that found "importantly surging renewables 
build and coal retirements have not triggered a dramatic leap 
in retail power prices. Average retail electricity rates across 
the country remain 5.8 percent below the recent peak 2008 in 
real terms in part due to cheap generation from natural gas.'' 
So without objection, I'd like to enter this into the record.
    Chairman Bridenstine. Without objection, so ordered.
    Ms. Bonamici. Thank you.
    Chairman Bridenstine. You're welcome.
    [The information appears in Appendix II]
    Ms. Bonamici. Thank you, Mr. Chairman.
    Chairman Bridenstine. Real quick. On the sue-and-settle 
issue, my understanding is, the sue-and-settle rulemaking that 
affected the state of North Dakota was actually a lawsuit that 
happened in California. Are you aware of that?
    Mr. Yeatman. Yes, Chairman.
    Chairman Bridenstine. Now, explain to me why the EPA would 
sue to prevent North Dakota from having any kind of involvement 
in that rulemaking?
    Mr. Yeatman. A matter of legal strategy. The Agency--
ultimately, it's not the EPA that's suing, it'll be an 
environmentalist group that----
    Chairman Bridenstine. Okay.
    Mr. Yeatman. --would bring the suit to compel EPA to do its 
duty. It is the Northern District Court of California, and the 
Bay area is perceived by such litigants as being more favorable 
to their cause, if you will, than other courts. So that's why 
they wouldn't go to North Dakota, a federal district court. 
That's why they would say you find this unusual arrangement 
whereby EPA is negotiating with an environmental special 
interest in a northern California court North Dakota's 
regulatory responsibilities.
    Chairman Bridenstine. Could EPA not--so could EPA not--
working with the state, could EPA not bring North Dakota to the 
negotiation?
    Mr. Yeatman. That was the very suit that North Dakota AG 
Wayne Steinem tried to intervene and the Agency actually 
litigated to prevent, so it was----
    Chairman Bridenstine. When you say ``the Agency,'' who is 
``the agency''?
    Mr. Yeatman. Well, the Environmental Protection Agency 
working with the Department of Justice.
    Chairman Bridenstine. So the Agency did sue to prevent 
North Dakota from having a seat at the table?
    Mr. Yeatman. I guess legalese, slight difference. I mean, 
they litigated--they were already part of the suit as the 
respondent. They joined with the environmental special 
interests to prevent intervention of right by North Dakota.
    Chairman Bridenstine. That is absolutely bullying states.
    I now recognize the gentleman from Alabama, Mr. Palmer, for 
five minutes.
    Mr. Palmer. Thank you, Mr. Chairman. I just want to follow 
up on this issue of how higher energy costs impact families. To 
the point that was made, income--families with incomes below 
$30,000 spend almost a quarter of their disposable after-tax 
income on household energy. That's just now, right now. Among 
those are senior citizens, which make up, I forget, 20 
something million households. Their median income is somewhere 
below $34,000 a year, has a tremendously negative impact on 
their disposable income, and it's also interesting to note that 
the National Black Chamber of Commerce has addressed this issue 
in regard to the Clean Power Plan, and I think this goes along 
the same lines, and they project that if these EPA regulations 
go into effect that it's going to increase poverty, household 
poverty among African-Americans by 23 percent, and by 26 
percent among Hispanic families.
    That said, there's some issues here that are very troubling 
to me, and the gentleman from Michigan, Mr. Moolenaar, touched 
on it, and that is this whole issue of sue-and-settle and 
consent decrees. I've done a substantial amount of work on the 
issue of consent decrees at the state level and also looked at 
the federal level. As a matter of fact, I coauthored a paper 
back a few years ago on how state legislatures can protect 
themselves.
    But what's going on right now is outside of what we've seen 
in years previous. And Mr. Yeatman, you can respond to this. 
Why would you think the EPA hasn't fought these suits through 
the courts including going all the way through the appeals 
process to get a judgment rather than simply entering into a 
consent decree? You can use your imagination.
    Mr. Yeatman. It is a fantastic question, and it's an issue 
we've been pressing at CEI is for the Agency to defend its 
discretion, to defend its prerogatives, to establish its own 
priorities instead of being beholden to environmental special 
interests and having these unelected, again special interests, 
in effect dictate the Agency's limited resources. It is--I'm 
loathe to put a cause behind it. I can only find it--I find it 
inexplicable.
    Mr. Palmer. Well, I can tell you this. In cases that I 
studied where states and the federal government in some cases 
but most of my work was at the state level, it was very evident 
that state agencies wanted to enter into a consent decree 
because it was their way of bypassing the legislature. They 
were able to increase spending, expand their programs by court 
order. I mean, what a wonderful opportunity to do that.
    I would--again, using our imagination, I would go so far as 
to say that it appears to me, Mr. Chairman, that the EPA is 
acting in collusion with environmental groups to achieve their 
agenda, whatever it may be, of regulating outside their 
statutory authority, and I think that's a huge issue. Would you 
like to respond, Mr. Yeatman?
    Mr. Yeatman. If I might speak to that issue, for whatever 
reason, a pioneer in this Regional Haze regime has been EPA 
Region 6, and that's Texas, Louisiana, Arkansas, Oklahoma, New 
Mexico. In 2010, so a number of these sue-and-settle consent 
decrees--you know, one consent decree that affected Region 6 
states, we know it was brought by Wild Earth Guardians in 2010. 
We know that the then-EPA Region 6 Administrator, Al 
Armendariz, who you might remember resigned in some controversy 
when he compared his enforcement style to that of a 
crucifixion, we know that he used to work at Wild Earth 
Guardians. We know that after he resigned from the EPA, he 
joined the Sierra Club. We learned from a FOIA that there were 
contacts between Al Armendariz and his former colleagues at 
Wild Earth Guardians regarding the actual--regarding the sue-
and-settle consent decree or the sue-and-settle process, and he 
was actually told by the EPA, whoa, you cannot be doing that.
    Mr. Palmer. Well, let me tell you what else we've 
discovered in that regard. We know that the EPA was holding 
seminars to teach their employees how to avoid FOIAs and 
National Archives and records requests by using websites set up 
by outside groups and maintained by outside groups. So there is 
collusion here, and Mr. Chairman, it may be in our best 
interests to hold a hearing to see if there might even be 
criminal activity here. Because it seems to me that there's a 
fraud being perpetrated upon the American people, and I'm going 
to make this as my closing statement.
    What really bothers me about this is the EPA is trying to 
regulate everything from ditch water to the climate, now the 
aesthetics of the environment, yet they covered up one of their 
own scientists' reports in Flint, Michigan, about the lead in 
water up there. They released millions of gallons of toxic 
material into creeks in Georgia and denied that they did it and 
finally had to admit it, and then by their own action released 
millions of gallons of toxins into the Animas River that flowed 
all the way down into Colorado and Utah and New Mexico and 
tried to cover that up. I think we need to dig deeper into 
this. I yield the balance of my time.
    Chairman Bridenstine. The gentleman from Alabama, Mr. 
Palmer, makes great points.
    I recognize--remember, this is a fly-out day so they're not 
likely to hold votes open for very long. We've got about ten 
minutes left. I recognize Mr. Babin from Texas for five 
minutes.
    Mr. Babin. Thank you very much, Mr. Chairman, and I'm just 
going to be very, very brief, and I appreciate what Mr. 
Palmer--those questions that he just asked, and right along 
those same lines, in your written testimony, Mr. Yeatman, you 
explained how EPA repeatedly has employed a supposedly 
independent consultant to second-guess state determinations on 
Regional Haze. However, during the same period, this same 
independent consultant has also worked on Regional Haze rules 
for environmental special interests like the Sierra Club. Does 
this lead you to question the EPA's independence? And I would 
like for you to explain. And then also, to your knowledge, how 
long has this type of arrangement been going on, and which 
state determinations have been affected by her involvement? 
Thank you.
    Mr. Yeatman. Thank you for the question. Yes, this raises 
serious conflict-of-interest concerns. This independent 
consultant has been employed by the Sierra Club with the 
National Parks Conservation Association on I believe it's six 
different Regional Haze rulemakings. I can--in the record, I 
can put down the states. I don't know them off the top of my 
head. At the same time, she's been employed by the EPA for five 
different rulemakings. So this is the same--during the same 
Administration, the same regulatory regime, the same 
independent consultant, and just to clarify what's going on 
here, the states spent thousands of hours on these Regional 
Haze plans. These Regional Haze plans are thousands of pages 
long. It's a lot of expertise. It's a lot of resources that 
states expend on them. This independent consultant, who again 
seems to be playing both sides of the field here, based on her 
analysis, EPA is disapproving the state plan. So we've got on 
the one hand a co-sovereign of the United States, thousands of 
hours of work. On the other hand, that work being effectively 
shown to the side, cast by the wayside due to the input of this 
one contractor.
    So it is one other point with respect to this. Sierra Club 
is one of the environmental special interests that has been 
involved in each of the sue-and-settle lawsuits that have led 
to these deadlines for these rulemakings. That means that EPA 
before the courts and Sierra Club are adversaries on this, you 
know, putatively or supposedly, you know, in our adversarial 
legal system they're on opposite sides of the coin. However, at 
the same time, they're employing the same independent 
consultant. I mean, it just, again, raises these, I would argue 
serious conflict-of-interest concerns.
    Mr. Babin. Absolutely. I thank you for that.
    Mr. Chairman, to save time so we can go vote, I yield back 
the balance of it.
    Chairman Bridenstine. I'd like to thank the gentleman from 
Texas.
    I thank the witnesses for their valuable testimony today 
and the members for their questions. The record will remain 
open for two weeks for additional comments and written 
questions from the members.
    Mr. Babin, if you have additional questions, you can 
certainly submit them for the record.
    This hearing is adjourned. Thank you.
    [Whereupon, at 10:49 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
